Miami-Krome Followup Special report
FOLLOW-UP REPORT
ALLEGED DECEPTION OF CONGRESS:
THE CONGRESSIONAL TASK FORCE ON IMMIGRATION REFORM'S
FACT-FINDING VISIT TO THE MIAMI DISTRICT OF INS IN JUNE 1995
September, 1997
TABLE OF CONTENTS
EXECUTIVE SUMMARY
I. BACKGROUND
II. KROME SERVICE
PROCESSING CENTER
A.
Detainee Population
1.
OIG Investigative Report Findings
2. Results
of Follow-up Review
B. Release
of Aliens Into the Community
1.
OIG Investigative Report Findings
2.
Results of Follow-up Review
a.
Criminal Histories
b.
Medical Histories and Clearances
C. Alien
Tracking Systems
1.
OIG Investigative Report Findings
2.
Results of Follow-up Review
D. Other
Krome Matters
1.
American Corrections Association (ACA) Accreditation
2.
Management Vacancies
E.
Conclusion on Krome
III. MIAMI
INTERNATIONAL AIRPORT
A. Background
-- Inspection Processing at the Miami International Airport
B. Gear Belts and
Firearms
1. OIG
Investigative Report Findings
2. Results
of Follow-up Review
C.
Detention Policies and Logs
1. OIG
Investigative Report Findings
2.
Results of Follow-up Review
a.
Detention Policies
b. Logs
c.
Conclusions
IV. COOPERATION
A. OIG
Investigative Report Findings
B. Results of
Follow-up Review
V. CONCLUSION
APPENDIX - INS' ANALYSIS OF
NINE ALIENS
EXECUTIVE
SUMMARY
On June 14, 1996, the Office of the Inspector General (OIG)
issued the special investigative report entitled Alleged
Deception of Congress: The Congressional Task Force on
Immigration Reform's Fact-finding Visit to the Miami District of
INS in June 1995. The report described serious problems we
discovered at the Krome Service Processing Center (Krome) and the
Miami International Airport (Airport). The report also assigned
responsibility to various Immigration and Naturalization Service
(INS) personnel for having deceived a delegation from the Task
Force during its visit to those two facilities. The
administrative process for imposing discipline on those INS
employees is still ongoing.
As part of our follow-up process, we reviewed INS actions
taken during the past year to address systemic issues encountered
during the Miami investigation. Our follow-up review was limited
in scope. We were on-site at Krome from June 16 through June 24,
1997, and on-site at the Airport from June 19 through June 24,
1997. At Krome we reviewed detainee population levels, release of
aliens into the community, and various record-keeping systems. At
the Airport we reviewed detention policies and practices, the
integrity and accuracy of various records systems, and the
wearing of gear belts and carrying of firearms by inspectors. We
also reviewed actions taken by INS to ensure cooperation with
future OIG work.
In summary, we found that progress has been made in several
areas, but that other areas have not measurably improved since
our report was issued a year ago.
At Krome, the overcrowded conditions have eased, and juvenile
male detainees are no longer housed with the general adult male
population. However, we found male felons and female felons were
still being housed with non-criminal male and female detainees.
Criminal aliens were still being released from Krome, and
sufficient evidence that criminal history checks are being
performed prior to the release of aliens was missing from a
number of files we reviewed. In addition, we found that
discrepancies between manual and automated records at Krome
continue to be a problem.
At the Airport we noted that, for the most part, criminal
aliens were being held in cells while their cases were being
processed. In addition, there was confusion over which aliens
should be placed in the holding cells, which has apparently been
caused by the definition of certain terms used in policy
documents issued to establish criteria for the detention of
aliens in holding cells. At the Airport, poor maintenance of
Detention Logs continues to be a problem. We found that policies
have been issued regarding inspectors wearing gear belts and
carrying weapons, and that Miami inspectors were in compliance
with these new policies.
We found that in the wake of our Miami INS report, the
Commissioner acted quickly and properly to notify INS employees
of the need to cooperate fully with any future investigation. A
survey of our own OIG employees showed that a large majority felt
that INS employee responsiveness to and cooperation with OIG
investigations, inspections, and audits during the past year have
been either good or excellent.
#####